AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
   SOUTHWEST BORDER PROSECUTION
    INITIATIVE FUNDING RECEIVED BY
          THE STATE OF ARIZONA



        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-60-12-005
             February 2012


      REDACTED – FOR PUBLIC RELEASE
                AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
                    SOUTHWEST BORDER PROSECUTION
                    INITIATIVE FUNDING RECEIVED BY
                          THE STATE OF ARIZONA

                                EXECUTIVE SUMMARY 1


       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to the State of Arizona. From FYs 2006 through 2011, Arizona received
SWBPI funding totaling $1,601,265 on a pro-rata basis.

       Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces, such as the High Intensity Drug Trafficking
Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces
(OCDETF). Many U.S. Attorneys have developed prosecution guidelines that
govern the most common violations of federal law. These prosecution
guidelines are used by law enforcement agencies to determine whether to
file a case in federal, state, or county court. As a result, many federally
initiated cases occurring near the southwest border are referred to the state
or county for prosecution.

       The SWBPI was established in fiscal year (FY) 2002, when Congress
began appropriating funds to reimburse state, county, parish, tribal, and
municipal governments for costs associated with the prosecution of criminal
cases declined by local U.S. Attorneys’ offices. The SWBPI reimburses the
eligible applicants for costs incurred during prosecution for three major
categories based on the types of services provided: (1) prosecution only,
(2) pre-trial detention only, and (3) both prosecution and pre-trial detention.
Reimbursements received from SWBPI funding may be used by applicant
jurisdictions for any purpose not otherwise prohibited by federal law. For
FY 2012, Congress appropriated $10 million for the SWBPI.

      The objective of our audit was to determine if the SWBPI
reimbursements received by the State of Arizona were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the SWBPI.


       1
         The State of Arizona’s response to this report contains the identity of one individual
that may implicate the privacy rights of that individual. Therefore, the Office of the Inspector
General redacted that preson’s name to create this public version of the report.
       We found that the State of Arizona claimed and was reimbursed for
cases that were ineligible under the SWBPI guidelines. Based on the
deficiencies listed below, we identified questioned costs totaling $105,459.
Specifically, we found that the State of Arizona:

   •   Received unallowable reimbursements totaling $87,745 for 38 cases
       that were submitted in the wrong period.

   •   Received unallowable reimbursements totaling $16,660 for four cases
       that were submitted multiple times and one case that was prosecuted
       during a concurrent period of time as a case involving the same
       defendant that was also submitted for reimbursement.

   •   Received unallowable reimbursement totaling $2,623 for one case that
       was never disposed.

   •   Received excess reimbursements totaling $1,432 for two cases that
       were that were submitted under the wrong disposition category, based
       on numbers of days from arrest to disposition.

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




                                      ii
                                    TABLE OF CONTENTS


INTRODUCTION .......................................................................................... 1

      Background ................................................................................... 1

FINDINGS AND RECOMMENDATIONS .......................................................... 6

      Case Eligibility ............................................................................... 6
      Accuracy of Reimbursements........................................................... 7

RECOMMENDATIONS ................................................................................... 9

APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY ......................... 10

APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS...................... 11

APPENDIX III – DETAILS OF QUESTIONED COSTS .................................... 12

APPENDIX IV – STATE OF ARIZONA RESPONSE TO
   THE DRAFT REPORT ............................................................................ 14

APPENDIX V – OFFICE OF JUSTICE PROGRAMS RESPONSE
   TO THE DRAFT REPORT ...................................................................... 24

APPENDIX VI – ANALYSIS AND SUMMARY OF ACTIONS
   NECESSARY TO CLOSE THE REPORT ................................................... 28
            AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
                SOUTHWEST BORDER PROSECUTION
                INITIATIVE FUNDING RECEIVED BY
                      THE STATE OF ARIZONA

                              INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit and issued a report on the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to the State of Arizona. The objective of the audit
was to determine whether the SWBPI reimbursements received by the State
of Arizona were allowable, supported, and in accordance with applicable
laws, regulations, and terms and conditions of the SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the illegal importation of controlled substances at U.S. borders.
Typically, these cases were prosecuted exclusively by U.S. Attorneys in
federal courts. However, in late 1994, U.S. Attorneys, and state and local
prosecutors established partnerships through which the state and local
governments began prosecuting federally referred criminal cases. These
partnerships allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden. Congress
recognized this problem and began appropriating funds under the SWBPI in
fiscal year (FY) 2002 to support state and local prosecutions along the
southwest border.

       For FY 2012, Congress appropriated $10 million in funding for the
SWBPI, Pub. L. No. 112-55 (2011), to reimburse state, county, parish,
tribal, or municipal governments for costs associated with the prosecution of
criminal cases declined by local U.S. Attorneys’ offices. Reimbursements
received from the SWBPI funding may be used by applicant jurisdictions for
any purpose not otherwise prohibited by federal law; however, the direct
support and enhancement of jurisdictions’ prosecutorial and detention
services are encouraged.



                                      1
      The SWBPI reimburses eligible applicants for costs incurred during
prosecution for three major categories based on the types of services
provided: (1) prosecution only, (2) pre-trial detention only, and (3) both
prosecution and pre-trial detention. For cases disposed of between FY 2002
and the second quarter of FY 2008, each eligible case submitted for
prosecution or pre-trial detention services only received the following
maximum reimbursement, based upon the length of disposition and the
availability of funds:

  •   $1,250 for each case of 1 to 15 days,

  •   $2,500 for each case of 16 to 30 days,

  •   $3,750 for each case of 31 to 90 days, and

  •   $5,000 for each case over 90 days.


      For cases disposed of between FY 2002 and the second quarter of
FY 2008, each eligible case submitted for both prosecution and pre-trial
detention services submitted for reimbursement, received the following
maximum reimbursement based upon the length of disposition and the
availability of funds:

  •   $2,500 for each case of 1 to 15 days,

  •   $5,000 for each case of 16 to 30 days,

  •   $7,500 for each case of 31 to 90 days, and

  •   $10,000 for each case over 90 days.


      For cases disposed between FY 2002 and the second quarter of
FY 2008, the disposition period of a case with both prosecution and pre-trial
detention services was calculated using the prosecution disposition period.
For cases disposed from FYs 2002 through 2006, to meet the pre-trial
detention services requirement, the defendant was required to be detained
overnight, i.e., from 1 calendar day to the next. For cases disposed after
FY 2006, to meet the pre-trial detention services requirement, the defendant
must be detained for at least 24 hours.



                                      2
       For cases disposed of between the third and fourth quarters of
FY 2008, jurisdictions were to only receive reimbursements for the actual
number of prosecutor hours charged to the case and the number of days the
defendant was detained prior to the disposition of the case. Prosecutors’
salaries charged to the case are based on the average hourly rate for the
county’s prosecutors and cannot include fringe benefits. Detention
reimbursements are based on the number of days the defendant was
detained prior to the disposition and are calculated using the published
federal detention per diem rate for the jurisdiction.

        For cases disposed after FY 2008, jurisdictions may receive
reimbursements based on the personnel costs associated with prosecuting a
case, including the personnel costs for prosecutors, paralegals, judges,
judicial staff, public defenders, clerical staff and indigent screening
personnel. The allowable costs are then allocated to each case based on the
percentage of eligible SWBPI cases prosecuted by the jurisdiction out of the
total number of cases prosecuted during the period. This percentage is
calculated separately for misdemeanor cases and felony cases, and then is
multiplied by the total allowable misdemeanor and felony costs to arrive at
total allowable prosecution costs per case. Detention reimbursements are
still based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The pro-rata reimbursement percentages for the State of Arizona are
shown in Exhibit 1. 2




     2
         The State of Arizona did not request any reimbursements for FY 2006 3rd Quarter.

                                            3
EXHIBIT 1: PRO-RATA REIMBURSEMENT BASIS TO THE STATE OF
ARIZONA
                                               PERCENTAGE
 REPORTING PERIOD   START DATE  END DATE
                                               REIMBURSED
 FY06, 1st Quarter   10/01/05   12/31/05         53.18%
        nd
 FY06, 2 Quarter     01/01/06   03/31/06         47.61%
        th
 FY06, 4 Quarter     07/01/06   09/30/06         44.05%
        st
 FY07, 1 Quarter     10/01/06   12/31/06         52.34%
 FY07, 2nd Quarter   01/01/07   03/31/07         52.45%
        rd
 FY07, 3 Quarter     04/01/07   06/30/07         49.03%
        th
 FY07, 4 Quarter     07/01/07   09/30/07         57.26%
        st
 FY08, 1 Quarter     10/01/07   12/31/07         86.97%
 FY08, 2nd Quarter   01/01/08   03/31/08         71.63%
        rd
 FY08, 3 Quarter     04/01/08   06/30/08        111.05%
        th
 FY08, 4 Quarter     07/01/08   09/30/08        109.15%
 FY09, All Quarters  10/01/08   09/30/09           100%
 FY10, All Quarters  10/01/09   09/30/10           100%
Source: Office of Justice Programs

       The State of Arizona received reimbursements from SWBPI funds
totaling $1,601,265 from FYs 2006 through 2011, as shown in Exhibit 2. 3




       3
          Recently OJP reimbursed SWBPI recipients in the fiscal year following the fiscal year
of the application submission. Hence, the FY 2010 reimbursement was not received until
FY 2011 and any reference to FY 2011 funding received by the State of Arizona in this report
relates back to cases that were disposed in FY 2010.

                                               4
EXHIBIT 2: REIMBURSEMENTS TO THE STATE OF ARIZONA 4
    REPORTING                                             AMOUNT              AMOUNT
                        START DATE       END DATE
      PERIOD                                             REQUESTED          REIMBURSED
 FY06, 1st Quarter       10/01/05        12/31/05        $135,000               $71,795
 FY06, 2nd Quarter       01/01/06        03/31/06         100,000                47,614
 FY06, 4th Quarter       07/01/06        09/30/06         175,000                77,083
 FY07, 1st Quarter       10/01/06        12/31/06          55,000                28,784
 FY07, 2nd Quarter       01/01/07        03/31/07          58,570                30,813
 FY07, 3rd Quarter       04/01/07        06/30/07          40,000                19,613
 FY07, 4th Quarter       07/01/07        09/30/07          45,000                25,769
 FY08, 1st Quarter       10/01/07        12/31/07         105,000                91,320
 FY08, 2nd Quarter       01/01/08        03/31/08         115,000                82,370
 FY08, 3rd Quarter       04/01/08        06/30/08         134,918               149,825
 FY08, 4th Quarter       07/01/08        09/30/08         146,462               159,860
 FY09, All Quarters      10/01/08        09/30/09         613,098               613,098
 FY10, All Quarters      10/01/09        09/30/10         203,320               203,320
 TOTAL                                                                      $1,601,265
Source: Office of Justice Programs




       4
          Throughout the report, the differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of the
individual numbers rounded.

                                              5
                   FINDINGS AND RECOMMENDATIONS


      We found that the State of Arizona claimed and was reimbursed
      for cases that were ineligible under the SWBPI guidelines.
      Specifically, we found cases that were: (1) submitted in the
      wrong period, (2) investigated or prosecuted concurrently,
      (3) not yet disposed, and (4) submitted in the wrong
      reimbursement category. As a result, we identified questioned
      costs totaling $105,459.


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime
Drug Enforcement Task Forces (OCDETF). The SWBPI guidelines further
state that, “referred cases are eligible regardless of whether the case was
formally declined and referred by a U.S. Attorney, or through a blanket
federal declination-referral policy, an accepted federal law enforcement
practice, or by federal prosecutorial discretion.” Federally referred cases
that are declined and not prosecuted by the state or local government are
ineligible for reimbursement.

       We analyzed the 361 cases submitted for reimbursement by the State
of Arizona to determine whether the cases were eligible for reimbursement
under the requirements of the SWBPI guidelines.




                                      6
     Based on our review, we found that the State of Arizona received
SWBPI funds totaling $105,459 for 46 cases that were not eligible for
reimbursement pursuant to the SWBPI guidelines.


     A detailed listing of the cases claimed by the State of Arizona that
were not eligible for reimbursement is provided in Appendix III. Specifically,
we found that the State of Arizona: 5

   •   Received unallowable reimbursements totaling $87,745 for 38 cases
       that were submitted in the wrong period.

   •   Received unallowable reimbursements totaling $13,660 for four cases
       that were submitted multiple times and one case that was prosecuted
       during a concurrent period of time as a case involving the same
       defendant that was also submitted for reimbursement.

   •   Received unallowable reimbursement totaling $2,623 for one case that
       was never disposed.

   •   Received excess reimbursements totaling $1,432 for two cases that
       were that were submitted under the wrong disposition category, based
       on numbers of days from arrest to disposition.


Accuracy of Reimbursements

       The State of Arizona requests reimbursements from SWBPI funds
through an on-line application available on the Bureau of Justice Assistance
website. Pursuant to the SWBPI guidelines, for FYs 2002 through 2007
eligible cases were reimbursed using a uniform payment per case schedule
based on the length of disposition, which is calculated from the date of the
suspect’s arrest through case resolution. Resolution of the case is defined as
dismissal, conviction, or plea.

      We reviewed the reimbursement requests submitted by the State of
Arizona for FYs 2006 through 2007 to determine if the number of cases
claimed for each disposition category was supported by the detailed case

       5
          The OIG provided a draft of this audit report to OJP and the State of Arizona. In
response to our draft report, the State of Arizona provided additional documentation
supporting the allowability of several cases that were questioned in our draft report. As a
result, we adjusted the status of the recommendations as discussed in Appendix III.

                                               7
listings obtained during fieldwork. 6 Based on our review, we determined
that the reimbursement requests were supported by the master case listing.




       6
          We did not reconcile cases submitted to OJP after FY 2007 because starting in the
first quarter of FY 2008, SWBPI recipients were required to provide OJP a detailed listing of
cases for which they were requesting reimbursement. Prior to FY 2008, SWBPI recipients
were only required to provide OJP the number of cases for which they were requesting
reimbursement for each disposition category.

                                              8
Recommendations

     We recommend that OJP:

1.   Remedy the $87,745 in questioned costs received by the State of
     Arizona for 38 cases that were submitted in the wrong period.

2.   Remedy the $13,660 in questioned costs received by the State of
     Arizona for four cases that were submitted multiple times and one case
     that was prosecuted during a concurrent period of time as a case
     involving the same defendant that was also submitted for
     reimbursement.

3.   Remedy the $2,623 in questioned costs received by the State of
     Arizona for one case that was never disposed.

4.   Remedy the $1,432 in questioned costs received by the State of
     Arizona for two cases that were that were submitted under the wrong
     disposition category, based on numbers of days from arrest to
     disposition.




                                    9
                                                                 APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY


      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. The
scope of our audit included reimbursements received by the State of Arizona
for FYs 2006 through 2011.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested the State of Arizona SWBPI activities in case eligibility
and compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

       We did not test internal controls for the State of Arizona as a whole.
The Single Audit Report for the State of Arizona was prepared under the
provisions of Office of Management and Budget Circular A-133 for the fiscal
year ended June 30, 2010. We reviewed the independent auditor's
assessment to identify internal control weaknesses and significant
non-compliance issues related to the State of Arizona or federal programs.
The auditor’s assessment disclosed no material control weaknesses or
significant non-compliance issues related to the SWBPI. In addition, we
performed testing of source documents to assess the accuracy of
reimbursement requests; however, we did not test the reliability of the
financial management system as a whole.


                                      10
                                                                           APPENDIX II

                   SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                              AMOUNT             PAGE

Unallowable cases that were submitted in the
                                                                 $87,745             7
  wrong period.

Unallowable duplicate cases and cases that                       $13,660
                                                                                     7
  were prosecuted concurrently.

Unsupported reimbursements for a case that
                                                                  $2,623             7
  was never disposed.

Excess reimbursements for cases that were                         $1,432             7
  submitted under the wrong reimbursement
  category.
                                                              $105,459
Total Questioned Costs: 7

TOTAL DOLLAR-RELATED FINDINGS                                 $105,459




        7
            Questioned Costs are expenditures that do not comply with legal, regulatory or
  contractual requirements, or are not supported by adequate documentation at the time of
  the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
  offset, waiver, recovery of funds, or the provision of supporting documentation.

                                             11
                                                  APPENDIX III


             DETAILS OF QUESTIONED COSTS

         CASES REIMBURSED IN THE WRONG PERIOD
                 QUARTER         DISPOSITION    AMOUNT
  CASE NO.
                SUBMITTED           DATE       QUESTIONED
CR2008-009267    FY09-All        11/12/2009       $5,196
CR2008-007339    FY10-All        10/18/2010        4,149
 CR05-108725      FY06-1         09/29/2005        2,659
 CR04-023146      FY06-1         06/09/2005        2,659
 CR04-023146      FY06-1         06/15/2005        2,659
 CR04-020895      FY06-1         07/20/2005        2,659
 CR05-008770      FY06-1         09/01/2005        2,659
 CR2004-1809      FY06-1         11/28/2004        2,659
 CR07-005589      FY07-2         07/18/2007        2,623
 CR05-111069      FY06-2         04/17/2006        2,381
 CR05-010090      FY06-2         05/15/2006        2,381
 CR2005-4541      FY06-4         06/05/2006        2,203
 CR05-013132      FY06-4         04/27/2006        2,203
 CR04-020376      FY06-4         06/13/2006        2,203
 CR04-020376      FY06-4         04/28/2006        2,203
 CR05-013124      FY06-4         03/24/2006        2,203
 CR05-048293      FY06-4         07/16/2005        2,203
 CR05-105983      FY06-4         01/13/2006        2,203
 CR05-014327      FY06-4         01/27/2006        2,203
 CR05-012366      FY06-4         05/10/2006        2,203
 CR05-012366      FY06-4         05/10/2006        2,203
 CR05-013733      FY06-4         05/02/2006        2,203
 CR2005-4540      FY06-4         04/17/2006        2,203
 CR2005-4540      FY06-4         06/08/2006        2,203
 CR2005-4541      FY06-4         04/06/2006        2,203
 CR2005-4540      FY06-4         04/20/2006        2,203
 CR2005-4541      FY06-4         05/01/2006        2,203
 CR2005-4540      FY06-4         04/25/2006        2,203
 CR2005-4541      FY06-4         04/06/2006        2,203
 CR2005-4540      FY06-4         05/16/2006        2,203
 CR2005-4541      FY06-4         05/05/2006        2,203


                            12
                        QUARTER          DISPOSITION        AMOUNT
        CASE NO.
                       SUBMITTED            DATE         QUESTIONED
     CR2005-4540         FY06-4          04/07/2006          2,203
     CR2005-4991         FY06-4          06/16/2006          2,203
     CR2005-4991         FY06-4          06/26/2006          2,203
     CR05-006100         FY06-4          02/06/2006          2,203
     CR03-032705         FY06-4          03/08/2006          2,203
     CR2004-1811         FY06-1          11/28/2004              0
     CR2004-1814         FY06-1          11/28/2004              0
    Total                                                 $87,745




               CASES THAT WERE CONCURRENTLY PROSECUTED
                  QUARTER     REIMBURSEMENT      DISPOSITION     AMOUNT
   CASE NO.
                 SUBMITTED       CATEGORY            DATE      QUESTIONED
 CR2004-1809       FY08-2        91+ Days         01/25/2008      $3,581
 CR2004-1811       FY06-1        91+ Days        11/28/2004        2,659
 CR2004-1814       FY06-1        91+ Days        11/28/2004        2,659
 CR03-032705       FY06-4        91+ Days        03/08/2006        2,381
 CR05-006100       FY06-4        91+ Days        02/06/2006        2,381
 Total                                                          $13,660



                             CASE NOT DISPOSED
  CASE NO.       INITIATING      REIMBURSEMENT      QUARTER       AMOUNT
                   AGENCY           CATEGORY       SUBMITTED    QUESTIONED
 CR04-013347    HIDTA/MCSO          91+ Days         FY07-2       $2,623
Total                                                            $2,623




                        EXTRA DAYS REIMBURSED
   CASE NO.      QUARTER      REIMBURSEMENT   CASE LENGTH       AMOUNT
                SUBMITTED        CATEGORY       (DAYS)         QUESTIONED
CR07-134405       FY07-4         91+ Days          70              $716
CR07-134405       FY07-4         91+ Days          70               716
Total                                                           $1,432




                                    13
                                                                                   APPENDIX IV

                    STATE OF ARIZONA RESPONSE
                       TO THE DRAFT REPORT




                                           •
                                         ( ... ....
                                                ,~"
                                  office of the Attorney General
                                          Stat.. of Arizona
                                                                                Kimberly H. Ortiz
                                                                                Crl m l ~ DiY lslon




Janua",   5, 20r
David M. Sheeran
Regional AUdl, Manager
US Departme~t of Justice
Office of Inspejctor General
Denver Regior)al Audit Office
1120 lincoln, Suite 1500
Denver, COlort do 80203

       Re:     ~W8PI   - Audit

Dear Mr. SheJ.en:

I am in receipt Lr your letter dated December 19, 2011 regarding the audit findings of the
Southwest Bor~er Prosecution Initiative (SWBPt) funds reimbursed to the Artzona Attorney
General's Offi'f (AAGO).
                ,
As you know, Ire AAGO has been participating in the SWBPt program since FFY2002-1
through FFY2Q11 , receiving approximately $1 ,601,265 in reimbursements. Throughout
these six yea~in a vigilant effort to comply with the program guidelines, the AAGO
actively sough out guidance and assistance from members of the OJP when questions
and concems rose regarding eligibility and reporting requirements. The bulk of the cases
identified "to  remedied" in the audit (and discussed below) were cases successfully
prosecuted by    GO; however, these cases were flagged because they inadvertently had
been omitted rom submission for reimbursement during the proper quarter and were
reported on a ~ubsequent quarter submission.

Regarding this! particular reporting issue, our documentation reflects that in July, 2003,
AAGO person~el contacted OJP for clarification of reporting eligibility for cases submitted
in a quarter d~rent from the quarter when the case was concluded . OJP advised the
AAGO that inlj'lusion of previously-omitted cases was allowable. \Nhen deciding an
appropriate rerjledy on these cases, the MGO urges OJP 10 consider both our good-faith
reliance on thislclarificalion as well as Ihe fact that all these cases were actively prosecuted
and resulted in jsuccessfully convictions offederal-nexus defendants. We hope that OJP
will impose no Sanction for this administrative reporting discrepancy.

                I
                ,




                                           14

David M.     SO"<1>.""
January 5,
Page2

I now will   add",,.. your findings on a case-by-case basis below:




                                                                      see attached




                                                                           a total

                                                                           fl'"''
                                                                     timely . we
                                                                     10 replace it



                                                                             tota'




.....-.-




                                         15

             I

David M.She~en
January 5, 2°12
Page 3        I




                                                              Th.

                        defendants. The AAGO requests that OJP
                        allow this defendsnt to be reimbursCKIlllnce It
                                    a SWBPl case and the AAGO




                  16

David M.      She~n
January 5, 2012
Page 4       I


                            AAGO was reimbursed ror 35 ofthose 64
                            defendants. The AAGO requests thai OJP
                            allow this defendant 10 be reimbursed since it
                                                  case and the AAGO




                                                           I
                            proper quarter, the AAGO prosecuted a total
                            of 64 defendants in FY06-3JFY06-4. The
                            AAGO was reimbursed for 35 of those 64
                            defendants. The AAGD requests thai OJP
                            aUow this defendant to be reimbursed since It
                                                 I


Tucdo,   caro~ne




                            proper quarter, the AAGO prosecuted a total
                            of 64 defendants in FY06-31FY06-4. The
                            AAoo was relrrbursed for 35 of those 64
                            defendants. The MGO requests that OJP
                            allow this defendant to be reimbursed since It
                                        a SWBPI case and the AAGO


Young, Kent




                                                               ;
                            proper quarter, the AAGO prosecuted a total
                            of 64 defendants in FYQ6-3IFY06-4. The
                            AAGO was reimbursed for 35 of those 64
                            defendants. The AAoo requests that OJP
                            allow this defendant to be reimbursed since it
                            was ,clearty a SWBPt case and the AAGO

~~~~~~                                                            ~d




                      17

David M.       She~en
January 5,
PageS
                 2°12



                               proper quarter, the
                               of 64 defendants in                   The
                               AAGO was reimbursed for 35 of Ihose 64
                               defendants. The MGO requests thai OJP
                               allow this defendant to be reimbursed since it
                                             SWBPI case and the AAGO




                               MGO was reimbursed for
                               defendants. The AAGO requests thai OJP
                               allow this defendant to be reimbursed since It
                               was clearly a SVVBPJ case and the MGO
                                    .                     i

Galcia-Nunez




Rcdriguaz-Lope,z:.
Manuel




Rodrlguez..l.opez,

"""


                               MGOW8S        I
                               defendants. The AAGO requests that OJP
                               allow this defendant to be reimbursed since it
                               was clearly a SWBPI case and the AAGO




                     I
                         18

    David M. ShE,.\."n
    January 5,
    Page 6


    Sdllrkl


                                                                      requests that OJP
                                                                        reimbursed since It
                                                                         andtheAAOO
                                                                       I
                                                                              ;    I
                                             proper quarter, lile MGO prosecuted a total
                                             of 64 defendants in FY06-3JFY06-4. The
                                             MGO was reimbursed for 35 of those 64
                                             defendants. The MGO requests thai OJP
                                             allow Ihis defendant to be reimbulSed since it
                                                   I               case and the MGO




~~~~~~7'r06"'--to6i1aro'-~'"""'----rproper quarter, the AAGO prosecuted a lolal
I                                    I         ;
                                             of 64 defendants In FY06-31FY06-4. The
                                             AAGO was reimbursed for 35 of those 64
                                             defendants. The AAGO requests that OJP
                                             allow this defendant to be reimbursed since it
                                             waB clearty a ~PI case and Ihe AAGO

~...,-tfY06-~Oi26iiiilimrl
 ......                                                                           1k------I



                                             proper quarter, the AAGO prosecuted a total
                                             of 64 defendants In FY06-3JFY06-4. The
                                             AAGO was reimbursed for 35 of those 64
                                             defendants. The AAGO requests Ihal OJP
                                             allow this defendant to be reimbursed since it
                                             was clearty a SWtiPI case and the AAGO


~~~~~~~                                                                           ~
I   ;:"n                                     ~~~~~~::~1~~:~~~~~~ja                11>8
                                                                                     total
                                                                         35 of those 64
                                             defendants. The AAGO requests Ihat OJP
                                             allow this defendant to be reimbursed since it
                                                                 I




                                    19

David M. Sher~n
January 5, 20 2
Page?

                                                   received a conviction of this defendanl
CR04-181 1                   11128104   $0         Although the audit did not question the amount
              r 06-1                               paid on this case in this category, AAGO still
                                                   incorreclly reported a disposition data of
                                                   11128104. The actual disposition date was
              i                                    11/28105, which falls within the correct
                                                   reimbursement category. Please see attached
                                                   MEO dated 11128105. AAGO's explanation
                                                   why this case is not concurrent is addressed
             Ii
              r
                                                   below.
CR04-1814         06 1      11128/04    $0         Although the audit did not question the amoun t
                    -                              paid on this case In this category, AAGO still
              I                                    Incorrectly reported a disposition date of
              ,                                    11128/04. The actual disposition date was
              ,                                    11128105, which falls within the correct
                                                   reimbursement calegory. Please see attached
                                                   MEO dated 11128/05. AAGO's explanation

              I                                    why this case is not concurrent is addressed
                                                   below.

                         Ca,es That Were Concurrently Prosecuted




                                                   d~~~~~i:::~~~~;'~~ Ih_ '"'"'
                                                   ir  were        I prosecutions.
                                                   None of these cases were joined at trial as
                                                   they all were factually distinct To elaborete,
                                                   as an example, the attorney time dedicated to
                                                   trial preparation arid the actual jury trial in
                                                   CR02-1811 was NOT CONCURRENT with !he
                                                   attorney time required for trial preparation and
                                                   the actual Jury trial In CR02-1 612. The trials
                                                   involved different police reports, different
                                                   witnesses, different dates of offense, different
                                                   drug seizures, different oo-conspirator co­
                                                   defendants, etc. The cases were charged
                                                   separately due to the fact that there were
                                                   several wiretap investigations ongoing fOf this
                                                   large scale drug trafficking organization.
                                                   Finally, sentencngs on defendants found guilty
                                                   in multiple cause numbers routinely are sel at
                                                   the same daleltime in the interest of efficiency
                                                   and judicial economy. Based on these factors,
                                                   the AAGO requests thai OJP not define this
                                                   case as a concurrent case as the attorney
                                                         .Invested in theses prosecutions was not




                                             20

David M. S~.'I~_.n
January 5,
Page 8

                                                                                                              ~.

                                                                                                      trials
                                                                                                             ,,'
                                                                                       reports,
                                                          witnesses,                       offense, different
                                                          drug seizures, different co-conspirator c0-
                                                          defendants, etc. The cases were charged
                                                          separately due to the fact thallhere were
                                                          several wiretap investigations ongoing for this
                                                          large scale drug ttaffickJng OIlIanization.
                                                          Finally, sentencings on defendants found guilty
                                                          in multiple cause numbers roulinely are set at
                                                          the same dateltlma In the Interest of efficiency
                                                          and J udicial ecollOf'rr)l. Based on these factors,
                                                          the AAGO requests that OJP not define this
                                                          case as a concurrent case as the attorney
                                                          time invested in theses prosecutlons was nol
                                                              I    .




                                                                  example,
                                                                 preparation                      trial In
                                                         CR02-1811
                                                         attorney time
                                                         the actual Jury    I
                                                         Involved different police reports,
                                                         witnesses, different dales of offense, different
                                                         drug seizures, different co-conspiralol' co­
                                                          defendants,   etc.     The cases were chafged
                                                         separately due to the fact that Ihere were
                                                         several Wiretap investigations ongoing for this
                                                         large scale drug tntl'ficlUng organization.
                                                         Finally, sentencing! on defendants found guilty
                                                         In multiple cause numbers routinely are sel at
                                                         the same daleltlma In the interest of efficiency
                                                         and judicial economy. Based on these factors,
                                                         the MOO requests that OJP not deftne this
                                                         case as a concurrent case as the attorney
                                                         lime invested in theses proaecutions was not




            l 400we<t~s.)15. T\o<sOI\M<ona   890' - PlIo ....   s~u..6S04   -   fu Slo.618.6S)O


           I
           I

                                        21

David M. Shereen
January 5, 2012
Page 9       t

                                  ell" Not pHsRo.ed



                                                                        and has not been




                                Extra Cava Reimbul'8ect




tn summary, the AAGO respectfully requests that OJ? review this response and we
propose the fonowing remedies for the audit findings:

   (1) For cases reported in the wrong quarter, that OJ? waive any sanction for the
       cases ~ubmitted for reimburtlement in quarters for which they were not
       disposej:t in the proper submission quarter since the AAGO actively pursued
       detenttqn, prosecution and conviction of those federal-nexus defendants; or

  (2) if OJ? is disinclined to waive any sanction for cases reported in the wrong
     quarter,lthat OJ? offset theMGO cases submitted In quarters forwhich they
     were not disposed with other cases thai the AAGO prosecuted and
     sentenced but did not submit for reimbursement; and

  (3) For cases described as concurrentty prosecuted , that OJ? nQ! categorize
      CR2001-1809, CR2004-1811 and CR2004-1814 as being concurrently
      proseCl{ted because the dates of offenses are distinct, the drug seizures are
      different. and the cg..conspirator cCK1efendants are different. The cases
      were charged separately due 10 the fact that there were several wiretap
      investigations ongoing for this large-scale drug trafficking organization; and
              I
              I




                                        22

David M. She~en
January 5,
Page 10
              2°1
                2
                  I
      (4) For the 'categories of "cases not disposed· and "extra days reimbursed -, the
          audit C9nCiUSions are founded and AAGO would request that OJ? again
          allow for substitution of unreported cases as proposed in (2) above; and

      (5) Upon oG final determination cfthe audit remedies, if financial sanctions in
                   p's
          fact ar~ required , the MGO requests that any funds to be reimbursed to
          OJ? be jaccomplished through offsets against any future AAGO submissions
          to swarl.

I hope our response is helpful to the review process. Please contact me if you need any
                ·on or additional information. Also, just for your information. our auditor,
_                 was professional and courteous during the case audit and minimized
  Sfuptlon Q o?-going work by allowing Tucson-based staff to appear telephonicaltyduring
the interview process at the Phoenix office. My staff and I enjoyed working with him
throughout th~ review process.
                  ,
      ry truly you ,


~~(f-.~
Kimberly H.
Section Chie ' ounsel
Border Crimes Enforcement Section
Office of the A omey General
Direct (520) 628-6517
              ,
KHO:lsr


cc:                          Auditor


#1487537v40




                 r W.>l.Co~"' S31S. Tucson,AriWllll ';;rOl - Pf>o ... pO.618.6504 - rl~ 510.628.6530


                  ,



                                                    23

                                                                     APPENDIX V
                    OFFICE OF JUSTICE PROGRAMS
                   RESPONSE TO THE DRAFT REPORT

                                        U.S. Department of Justice

                                        Office of Justice Programs

                                       Office of Audit, Assessment, and Management



                                       Washington, D.C. 20531




January 23, 2012


MEMORANDUM TO:          David M. Sheeren
                        Regional Audit Manager
                        Denver Regional Audit Office
                        Office of the Inspector General

                          /s/
FROM:                   Maureen A. Henneberg
                        Director

SUBJECT:                Response to the Draft Audit Report, Audit of Office of
                        Justice Programs Southwest Border Prosecution
                        Initiative Funding Received by the State of Arizona

The Office of Justice Programs (OJP) appreciates the opportunity to review
and comment on the Office of the Inspector General’s (OIG’s) draft report,
entitled “Audit of Office of Justice Programs Southwest Border Prosecution
Initiative Funding Received by the State of Arizona,” dated December 19,
2011. We consider the subject report resolved and request written
acceptance of this action from your office.

As a result of the OIG’s audit of the Southwest Border Prosecution Initiative
(SWBPI) program in fiscal years (FYs) 2008 and 2010, the Bureau of Justice
Assistance (BJA): 1) modified the SWBPI application system on October 6,
2008, to require that each prosecution case submitted by a jurisdiction for
reimbursement contain the case/docket number, defendant’s first and last


                                     24
name, referring federal agency, referred date, resolution type and the
resolved date; and 2) established new internal guidelines on June 9, 2010,
to ensure that SWBPI reimbursements are analyzed to identify anomalies
that may indicate unallowable or unsupported payments to specific
jurisdictions.

In FY 2011, OJP’s Office of Audit, Assessment, and Management (OAAM)
conducted a review of BJA’s SWBPI application review process. OAAM
determined that BJA’s internal procedures to verify the eligibility and
accuracy of SWBPI applications are effective. However, OAAM
recommended that BJA implement a process to identify overlapping requests
for detention expenses between SWBPI and the State Criminal Alien
Assistance Program (SCAAP). As a result, in the FY 2011 application cycle,
BJA reviewed the list of individuals submitted by each jurisdiction that
requested reimbursement for detention expenses under both programs. The
review found duplication in the SWBPI and SCAAP applications requests.
The amounts identified were removed from the total application value of the
SWBPI applications prior to award. Further, BJA will continue this review
process in future application cycles to prevent duplication.

It should also be noted that the ineligible SWBPI cases, identified by the OIG
during the audit, were for cases submitted by the State of Arizona prior to
changes that BJA implemented for the SWBPI program beginning in October
2008.

The report contains four recommendations and $105,459 in questioned
costs. The following is OJP’s analysis of the draft audit report
recommendations. For ease of review, the recommendations are restated in
bold and are followed by our response.

1.    We recommend that OJP remedy the $87,745 in questioned costs received by the
      State of Arizona for 38 cases that were submitted in the wrong quarter.

      We agree with the recommendation. We will coordinate with the State
      of Arizona to remedy the $87,745 in questioned costs related to the 38
      cases that were submitted in the wrong quarter. On previous cases,
      OJP has not required funds to be returned for cases submitted in the
      wrong quarter, if all of the other case requirements were met.

2.    We recommend that OJP remedy the $13,660 in questioned costs received by the
      State of Arizona for four cases that were submitted multiple times and one case that
      was prosecuted during a concurrent period of time as a case involving the same
      defendant that was also submitted for reimbursement.

                                           25
      We agree with the recommendation. We will coordinate with the State
      of Arizona to remedy the $13,660 in questioned costs related to the
      four cases that were submitted multiple times, and one case that was
      prosecuted during a concurrent period of time
      as a case involving the same defendant that was also submitted for
      reimbursement.

3.    We recommend that OJP remedy the $2,623 in questioned costs received by the
      State of Arizona for one case that was never disposed.

      We agree with the recommendation. We will coordinate with the State
      of Arizona to remedy the $2,623 in questioned costs related to one
      case that was never disposed.

4.    We recommend that OJP remedy the $1,432 in questioned costs received by the
      State of Arizona for two cases that were submitted under the wrong disposition
      category, based on the numbers of days from arrest to disposition.

      We agree with the recommendation. We will coordinate with the State
      of Arizona to remedy the $1,432 in questioned costs related to the two
      cases that were submitted under the wrong disposition category.

If you have any questions or require additional information, please contact
Jeffery A. Haley, Deputy Director, Audit and Review Division, on (202) 616-
2936.


cc:   Jeffery A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

      Denise O’Donnell
      Director
      Bureau of Justice Assistance

      Tracey Trautman
      Acting Deputy Director for Programs
      Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance

                                          26
Joseph Husted
Policy Advisor
Bureau of Justice Assistance

Maria Anderson
State Policy Advisor
Bureau of Justice Assistance

Louise Duhamel, Ph.D.
Acting Director, Audit Liaison Group
Internal Review and Evaluation Office
Justice Management Division

OJP Executive Secretariat
Control Number 20111997




                               27
                                                                        APPENDIX VI

               ANALYSIS AND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE REPORT

       The OIG provided a draft of this audit report to OJP and the State of
Arizona. In its response, which is included in Appendix V of this report, OJP
states that “It should also be noted that the ineligible SWBPI cases,
identified by the OIG during the audit, were for cases submitted by the State
of Arizona prior to changes that BJA implemented for the SWBPI program
beginning in October 2008.” We recognize the changes that OJP made to
the SWBPI program in October 2008 based on recommendations provided in
a prior OIG report. 8 However, questioned costs related to the ineligible
cases submitted prior to 2008 must still be remedied. OJP’s response is
incorporated in Appendix V of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.

Recommendation Number

   1. Resolved. OJP concurred with our recommendation to remedy the
      $87,745 in questioned costs received by the State of Arizona for 38
      cases that were submitted in the wrong period. OJP stated in its
      response that it will coordinate with the State of Arizona to remedy the
      $87,745 in questioned costs related to the 38 cases submitted for
      reimbursement under the SWBPI program that were submitted in the
      wrong period.

      In its response, which is included as Appendix IV of this report, the
      State of Arizona provided its views on each case we questioned. In
      addition, the State of Arizona proposed remedies for some cases and
      requested action by OJP. However, the State of Arizona also provided
      in its response supporting documentation that was sufficient to remedy
      four cases totaling $7,855 included in our questioned costs.
      Therefore, the remaining questioned costs for remedy in association
      with this recommendation are $79,890 ($87,745 - $7,855).




      8
        U.S. Department of Justice Office of the Inspector General, Southwest Border
Prosecution Initiative Reimbursement Program, Audit Report 08-22 (March 2008).



                                           28
  This recommendation can be closed when we receive adequate
  documentation that OJP remedied the remaining $79,890 in
  questioned costs received by the State of Arizona for the remaining
  34 cases that were submitted in the wrong period.

2. Resolved. OJP concurred with our recommendation to remedy the
   $13,660 in questioned costs received by the State of Arizona for four
   cases that were submitted multiple times and one case that was
   prosecuted during a concurrent period of time as a case involving the
   same defendant that was also submitted for reimbursement. OJP
   stated in its response that they will coordinate with the State of
   Arizona to remedy the $13,660 in questioned costs related to the four
   cases that were submitted multiple times, and one case that was
   prosecuted during a concurrent period of time as a case involving the
   same defendant that was also submitted for reimbursement.

  This recommendation can be closed when we receive documentation
  that OJP remedied the $13,660 in questioned costs received by the
  State of Arizona for four cases that were submitted multiple times and
  one case that was prosecuted during a concurrent period of time as a
  case involving the same defendant that was also submitted for
  reimbursement.

3. Resolved. OJP concurred with our recommendation to remedy the
   $2,623 in questioned costs received by the State of Arizona for one
   case that was never disposed. OJP stated in its response that they will
   coordinate with the State of Arizona to remedy the $2,623 in
   questioned costs related to the one case submitted for reimbursement
   under the SWBPI program that was never disposed.

  This recommendation can be closed when we receive documentation
  that OJP remedied the $2,623 in questioned costs received by the
  State of Arizona for one case that was never disposed.

4. Resolved. OJP concurred with our recommendation to remedy the
   $1,432 in questioned costs received by the State of Arizona for two
   cases that submitted under the wrong disposition category, based on
   numbers of days from arrest to disposition. OJP stated in its response
   that they will coordinate with the State of Arizona to remedy the
   $1,432 in questioned costs related to the two cases submitted for
   reimbursement under the SWBPI program that submitted under the
   wrong disposition category.


                                  29
This recommendation can be closed when we receive documentation
that OJP remedied the $1,432 in questioned costs received by the
State of Arizona for two cases that were submitted under the wrong
disposition category.




                              30
